                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A07070038                                                         11         Page 1 of 1




                  A significant amount of apparently copied text was found in three NSF proposals1by the
        ~ u b j e c tThe
                     . ~ Subject was contacted and responded to the allegation. The Subject provided
        documentation indicating that he co-authored all of the apparently copied text in two of the
        proposals. Evidence also indicated that the Subject did not intend to copy the limited amount of
        non-attributed or misattributed text in the third proposal.

               Given the circumstances and the limited amount of text involved, we have written to the
        Subject suggesting that he be more careful in future proposals. No further action is warranted.

                   Accordingly, this case is closed.




SF OIG Form 2 (1 1/02)
